APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 22, 2021) ......................... 1a
District Court of Pontotoc County, State of
Oklahoma, Findings of Fact and Conclusions
of Law (Signed November 18, 2020,
Filed November 19, 2020) ....................................... 10a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 24, 2020) .................................................... 20a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 22, 2021)
IN THE COURT OF CRIMINAL APPEALS OF
THE STATE OF OKLAHOMA
________________________
SHAWN THOMAS JONES,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-1309
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
LEWIS, JUDGE:
Shawn Thomas Jones, Appellant, was tried and
convicted of two counts of murder in the second
degree, in violation of 21 O.S.2011, § 701.8, in Pontotoc
County District Court, Case No, CF-2016-591. The
Honorable C. Steven Kessinger, District Judge, presided
at Jones’s jury trial and sentenced Jones according to

App.2a
the jury’s verdict to consecutive terms of life imprisonment on each count, and imposed various fees and
costs. Jones filed an appeal from the Judgment and
Sentences raising nine propositions of error. We find
that the issue raised in the third proposition entitles
Jones to relief, thus the remaining propositions are
moot.
In Proposition Three Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that while he is not Indian, his victims were citizens
of the Chickasaw Nation and the crimes occurred
within the boundaries of the Chickasaw Nation Reservation. Appellant, in his direct appeal, relies in part
on Murphy v. Royal, 875 F.3d 896 (10th Cir. 2017),
which was affirmed by the United States Supreme
Court in Sharp v. Murphy, 591 U.S. ___, 140 S. Ct.
2412 (2020) for the reasons stated in McGirt v.
Oklahoma, 591 U.S. ___, 140 S. Ct. 2452 (2020).
Appellant’s claim raises two separate questions:
(a) the Indian status of the victims and (b) whether
the crimes occurred in Indian Country. These issues
require fact-finding. This Court remanded this case
to the District Court of Pontotoc County for an evidentiary hearing. The District Court was directed to
make findings of fact and conclusions of law on two
issues: (a) the victims’ status as Indians; and (b)
whether the crime occurred in Indian Country, within
the boundaries of the Chickasaw Nation Reservation.
Our Order provided that the parties could enter into
written stipulations.
The District Court filed its Findings of Fact and
Conclusions of Law in the District Court and with
this Court’s Clerk. In the findings of fact regarding
the first question, the parties stipulated that the

App.3a
victims each had 7/32 Indian blood and were enrolled
members of the Chickasaw Nation, a federally recognized tribe, at the time of the crime; and their membership was verified by the Chickasaw Nation.
Regarding the second question, the finding of
fact included a litany of treaties and agreements that
established a reservation for the Chickasaw Nation;
the parties stipulated that the crime occurred within
the historical boundaries of the Chickasaw Nation;
the Chickasaw Nation is a federally recognized tribe;
and no evidence was presented that the treaties have
been expressly nullified or modified in any way to
reduce or disestablish the reservation.
The trial court concluded that a reservation was
set aside for the Chickasaw Nation; the reservation
has not been disestablished by Congress; the crime
occurred within the boundaries of said reservation;
and the victims were members of a federally recognized
tribe, namely the Chickasaw Nation.
Finally the trial court concluded that the crime
occurred in Indian Country and the victims were
Indians as defined by McGirt, 591 U.S., 140 S. Ct.
2452 (2020); see 18 U.S.C. § 1152; see also 18 U.S.C.
§ 1153 (Major Crimes Act). We find that the findings
of fact and conclusions of law are supported by the
record. This case is controlled by our recent decision
in Bosse v. State, 2021 OK CR 3, ___P.3d ___ (crime
occurring within the boundaries of the Chickasaw
Nation Reservation against citizens of the Chickasaw
Nation).

App.4a
CONCLUSION
Appellant’s victims were Indian, and these crimes
were committed in Indian Country. The federal government, not the State of Oklahoma, has jurisdiction to
prosecute Appellant. Proposition Three is granted.
The remaining propositions are moot.
DECISION
The Judgment and Sentence of the District Court
of Pontotoc County is REVERSED and the case is
REMANDED with instructions to DISMISS. Pursuant
to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch.18, App. (2021), the MANDATE
is STAYED for twenty (20) days from the delivery
and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
PONTOTOC COUNTY THE HONORABLE
C. STEVEN KESSINGER, DISTRICT JUDGE
APPEARANCES AT TRIAL
Larry Balcerak
215 N. Walnut
Pauls Valley, OK 73075
Attorney for Defendant
Tara Portillo
Asst. District Attorney
105 West 13th
Ada, OK 74820
Attorney for State

App.5a
APPEARANCES ON APPEAL
Kristi Christopher
P.O. Box 926
Norman, OK 73070
Attorney for Appellant
Mike Hunter
Okla. Attorney General
Katherine R. Morelli
Joshua R. Fanelli
Theodore M. Peeper
Asst. Attorneys General
313 Ne 21st Street
Oklahoma City, OK 73105
Attorneys for Appellee
Paul B. Smith
District Attorney
Tara Portillo
Asst. District Attorney
105 West 12th Street
Ada, OK 74820
Attorneys for Appellee
Debra Gee
4001 N. Lincoln Blvd.
Oklahoma City, OK 73105
Attorney for Amicus Curiae Chickasaw Nation
Opinion by: Lewis, J.
Kuehn, P.J.: Concur
Rowland, V.P.J.: Concur
Lumpkin, J.: Concur in Results
Hudson, J.: Concur in Results

App.6a
LUMPKIN, JUDGE,
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U. S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.7a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “It]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.8a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice
Roberts and Justice Thomas eloquently show the
Majority’s mischaracterization of Congress’s actions
and history with the Indian reservations. Their dissents
further demonstrate that at the time of Oklahoma
Statehood in 1907, all parties accepted the fact that
Indian reservations in the state had been disestablished
and no longer existed. I take this position to adhere to
my oath as a judge and lawyer without any disrespect
to our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.9a
HUDSON, J., CONCUR IN RESULTS
Today’s decision applies McGirt v. Oklahoma, 140
S. Ct. 2452 (2020) to the facts of this case and dismisses
two second degree murder convictions from Pontotoc
County. I concur in the results of the majority’s opinion based on the stipulations below concerning the
Indian status of the victims and the location of these
crimes within the historic boundaries of the Chickasaw
Reservation. Under McGirt, the State cannot prosecute
Appellant. Thus, as a matter of stare decisis, I fully
concur in today’s decision.
I disagree, however, with the majority’s definitive
conclusion based on Bosse v. State, 2021 OK CR 3,
___ P.3d ___ that Congress never disestablished the
Chickasaw Reservation. We should find instead no
abuse of discretion based on the record evidence
presented.
Finally, I maintain my previously expressed
views on the significance of McGirt, its far-reaching
impact on the criminal justice system in Oklahoma
and the need for a practical solution by Congress. See
Bosse, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,
Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl. Cr., Feb. 25,
2021) (Hudson, J., Specially Concurs) (unpublished).

App.10a
DISTRICT COURT OF PONTOTOC COUNTY,
STATE OF OKLAHOMA, FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(SIGNED NOVEMBER 18, 2020,
FILED NOVEMBER 19, 2020)
IN THE DISTRICT COURT IN AND FOR
PONTOTOC COUNTY, STATE OF OKLAHOMA
________________________
SHAWN THOMAS JONES,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. CF-2016-591
Case No. F-2017-1309
Before: C. Steven KESSINGER, District Judge.
FINDINGS OF FACTS AND
CONCLUSIONS OF LAW
This matter came on for hearing on October 19,
2020, pursuant to the Order Remanding for an Evidentiary Hearing issued by the Oklahoma Court of
Criminal Appeals filed August 24, 2020.
The State of Oklahoma appeared by District
Attorney, Mr. Paul B. Smith, Assistant District Attor-

App.11a
ney, Ms. Tara Portillo, and Attorneys General Mr.
Theodore M. Peeper and Mr. Joshua R. Fanelli. The
Appellant appeared by OIDS attorney, Ms. Kristi
Christopher. The Chickasaw Nation, an interested
party, appeared by attorney of record, Ms. Debra
Gee, having filed an Amicus Curiae brief.
The Court heard the argument of counsel and took
this matter under advisement.
The Court of Criminal Appeals ordered this Court
to address and determine the following:

I.

1.

The Indian status of the victims.

2.

Whether the crimes occurred in Indian
country.

The Status as Indians of Appellant’s Victims

The Court of Criminal Appeals ordered this Court
to determine the Indian status of the Appellant’s
victims by determining whether (1) the victims had
some Indian blood, and (2) were recognized as Indians
by a tribe or the federal government. The Court will
initially address those issues.
FINDINGS OF FACT
1. On October 8, 2020, the parties filed certain
Stipulations as to fact questions.
2. Brooke Lea Trotter had 7/32nd Indian blood
and was an enrolled member of the federally recognized
Chickasaw Nation at the time of the crime. Verification
of Ms. Trotter’s Indian blood and tribal membership
was supplied by the Chickasaw Nation.
3. Becky Nicole Trotter had 7/32nd Indian blood
and was an enrolled member of the federally recognized

App.12a
Chickasaw Nation at the time of the crime. Verification
of Ms. Trotter’s Indian blood and tribal membership
was supplied by the Chickasaw Nation.
CONCLUSIONS OF LAW
The Court of Criminal Appeals ordered this Court
to determine Indian status of the victims. This Court
was directed to determine whether (1) the victims had
some Indian blood and (2) the victims were recognized
as Indians by a tribe or the federal government.
The parties stipulated that the victims had 7/32nd
Indian blood and were enrolled members of the federally recognized Chickasaw Nation at the time of
the crime. The Court adopts the parties’ stipulations
and finds that Brooke Lea Trotter and Becky Nicole
Trotter each “had some Indian blood.”
The parties stipulated that the “victims were
recognized as Indians by a tribe or the federal government.” This stipulation is supported by the
Chickasaw Nation letters confirming citizenship. The
Court finds that Brooke Lea Trotter and Becky Nicole
Trotter were recognized members of the Chickasaw
Nation.
II. Whether the Crimes Occurred in Indian
Country
The Court of Criminal Appeals ordered this
Court to determine whether the crimes occurred in
Indian country. The Court must follow the analysis
in McGirt and determine (1) whether Congress established a reservation for the Chickasaw Nation, and
(2) if so, whether Congress specifically erased those
boundaries and disestablished the reservation. In

App.13a
making this determination, the District Court should
consider any evidence the parties provided, including
treaties, statutes, maps and/or testimony.
FINDINGS OF FACT
1. The Indian Removal Act of 1830 authorized
the President’s representatives to negotiate with
Native American tribes for their removal to federal
territory west of the Mississippi River in exchange
for their ancestral lands.
2. Pursuant to the authority outlined in the
Indian Removal Act of 1830, the 1830 Treaty of
Dancing Rabbit Creek was entered. The United States
of America granted to the Choctaw Nation certain
lands “in fee simple” to them and their descendants,
to insure to them while they shall exist as a Nation,
and live on it” in exchange for the Choctaw Nation
ceding their lands east of the Mississippi River.
Article 4 granted the Choctaw people “the jurisdiction
and government of all the persons and property that
may be within their limits west, so that no Territory
or State shall ever have a right to pass laws for the
government of the Choctaw Nation of Red People and
their descendants; and that no part of the land
granted them shall ever be embraced in any Territory
or State.” The land granted to the Choctaw Nation
was described as: “beginning near Fort Smith where
the Arkansas boundary crosses the Arkansas River,
running thence to the course of the Canadian fork; if
in the limits of the United States, or to those limits;
thence due south to Red River, and down Red River
to the west boundary of the Territory of Arkansas;
thence north along that line to the beginning.”

App.14a
3. The 1837 Treaty of Doaksville granted the
Chickasaw people a “district within limits of the
1830 Treaty of Dancing Rabbit Creek territory to be
held on the same terms that the Choctaws now hold
it.” The 1837 Treaty entered between the Choctaws
and Chickasaws made the provisions of the 1830
Treaty of Dancing Rabbit Creek applicable to the
Chickasaw Nation.
4. In 1855, the Treaty of Washington reaffirmed
the 1837 Treaty of Doaksville and modified the western
boundary of the Chickasaw territory. Congress explicitly
asserted that “pursuant to the Indian Removal Act,
the United States do hereby forever secure and
guarantee the lands embraced within the said limits,
to the member of the Choctaw and Chickasaw
tribes” and reserved those lands from sale “without
the consent of both tribes.” The 1855 Treaty further
reaffirmed the Chickasaw Nation’s right of self-government.
5. Following the Civil War, the Chickasaw and
Choctaw Nations entered into the 1866 Treaty, which
did not alter the Chickasaw District but reiterated
the Choctaw and Chickasaw Nations’ right to selfgovernance and reaffirmed the rights granted under
the previous treaties.
6. The parties stipulated that the Appellant’s
crime occurred in Pontotoc County, Oklahoma, at State
Highway 3E and County Road 3590 intersection near
Ada, Oklahoma. The parties further stipulated that
this address is within the historical geographic area
of the Chickasaw Nation, as set forth in the 1855 and
1866 treaties between the Chickasaw Nation, the
Choctaw Nation and the United States.

App.15a
7. The Chickasaw Nation is a federally recognized
Indian tribe that exercised sovereign authority under
a constitution approved by the Secretary of Interior.
8. No evidence is presented that these treaties
have been formally nullified or modified in any way
to reduce or cede the Chickasaw Nation lands to the
United States, any state or territory.
9. The parties further stipulated that [i]f the
Court determines that those treaties established a
reservation, and if the Court further concludes that
Congress never explicitly erased those boundaries
and disestablished the reservation, then the crime
occurred within Indian country as defined by Title 18
U.S.C. § 1151(a).
CONCLUSIONS OF LAW
First, the Court finds that a reservation was
established for the Chickasaw Nation by the treaties
discussed above. Title 18 U.S.C. § 1151(a) defines
“Indian Country” as “all land within the limits of any
Indian reservation under the jurisdiction of the United
States Government . . . ” As noted by the United States
Supreme Court in McGirt v. Oklahoma, 140 S. Ct.
2452, 2461, “early treaties did not refer to the Creek
lands as a ‘reservation’-perhaps because that word
had not yet acquired such distinctive significance in
federal Indian law. We have found similar language
in treaties from the same era sufficient to create a
reservation.”
The Court in McGirt stated that the “most authoritative evidence of [a tribe’s] relationship to the land
. . . lies in the treaties and statutes that promised the
land to the Tribe in the first place.” It specifically

App.16a
noted that Creek treaties promised a “permanent
home” that would be “forever set apart,” and assured
a right to self-government on lands that would lie
outside both the legal jurisdiction and geographic
boundaries of any state. As such, the Supreme Court
found that, “Under any definition, this was a reservation.” The Chickasaw Nation is subject to the same
analysis.
In applying the reasoning the Supreme Court
used in McGirt to the case at bar, this Court must
reach the same conclusion. Specifically, in the 1830
Treaty of Dancing Rabbit Creek, the Choctaw Nation
was granted the land in question “in fee simple to
them and their descendants, to insure to them while
they shall exist as a nation.” It secured the rights of
self-government and jurisdiction over all persons and
property within the treaty territory and promised
that no state shall interfere with those rights.
These rights applied equally to the Chickasaw
Nation under the 1837 Treaty of Doaksville. The
Treaty of Doaksville secured to the Chickasaw Nation
a “district within the limits of [the Treaty Territory],”
and guaranteed them the same privileges, rights of
homeland ownership and occupancy that the Choctaw
held under the 1830 Treaty.
In the 1855 Treaty of Washington, the Choctaw
and Chickasaw governments were made independent
of each other. The United States promised that it
does “hereby forever secure and guarantee the lands
embraced within the said limits, to the members of
the Choctaw and Chickasaw tribes,” and explicitly
reserved those lands from sale “without the consent
of both tribes.” It re-affirmed the tribes’ rights of selfgovernment, stating “the Choctaws and Chickasaws

App.17a
shall be secured in the unrestricted right of self-government, and full jurisdiction, over persons and property,
within their respective limits . . . ”
The aforementioned treaty rights were once
again reaffirmed in the 1866 Treaty of Washington,
which was entered when the Chickasaw and Choctaw
Nations agreed to cede certain defined lands to the
United States for a sum of money. Therefore, like the
Creek treaty promises, the United States’ treaty
promises to the Chickasaw Nation were not made
gratuitously.
Applying the reasoning used by the United States
Supreme Court in McGirt, the plain wording of the
treaties demonstrate the Chickasaw lands were set
aside for the Chickasaw people and their descendants
and assured the right to self-government on lands that
would lie outside both the legal jurisdiction and
geographic boundaries of any state. It is, therefore,
clear that Congress established a reservation for the
Chickasaw Nation.
Upon finding that a reservation was established
by Congress for the Chickasaw Nation, this Court
must next determine whether Congress has erased
those boundaries and disestablished the reservation.
As the Supreme Court made clear in McGirt, “[t]o
determine whether a tribe continues to hold a reservation, there is only one place we may look: the Acts of
Congress.”
The constitutional authority to breach a treaty
“belongs to Congress alone,” and the Court will not
lightly infer such a breach “once Congress has established a reservation.” “[On]ce a reservation is established, it retains that status until Congress explicitly

App.18a
indicates otherwise.’ While “[d]isestablishment has
never required any particular form of words, it does
require that Congress clearly express its intent to do
so, [c]ommon[ly with an] [e]xplicit reference to cession
or other language evidencing the present and total
surrender of all tribal interests.”
The Appellant and the State disagree where the
burden to prove disestablishment should be placed.
However, regardless which party bears the burden,
no evidence was presented to the Court to establish
that Congress explicitly erased or disestablished the
boundaries of the Chickasaw Nation or that the State
of Oklahoma has jurisdiction of this matter. No evidence
was presented that the Chickasaw reservation was
“restored to public domain,” “discontinued, abolished
or vacated.” Without, explicit evidence of a present
and total surrender of all tribal interests, the Court
cannot find the Chickasaw reservation was disestablished.
This Court finds that Congress established a
reservation for the Chickasaw Nation, and Congress
never specifically erased those boundaries and disestablished the reservation. Therefore, the crime occurred
in Indian country.
CONCLUSION
WHEREFORE, this Court finds that Brooke Lea
Trotter and Becky Nicole Trotter were Indians and
that the crime for which Appellant was convicted
occurred in Indian country for purposes of the General
Crimes Act, Title 18 U.S.C. § 1152.

App.19a
IT IS SO ORDERED!
Signed this November 18, 2020.
/s/ C. Steven Kessinger
District Judge

App.20a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 24, 2020)
IN THE COURT OF CRIMINAL APPEALS OF
THE STATE OF OKLAHOMA
________________________
SHAWN THOMAS JONES,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2017-1309
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice Presiding Judge., Gary L.
LUMPKIN, Judge., Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Shawn Thomas Jones, Appellant, was tried and
convicted of two counts of murder in the second
degree, in violation of 21 O.S.2011, § 701.8, in Pontotoc
County District Court, Case No, CF-2016-591. The
Honorable C. Steven Kessinger, District Judge, presided
at Jones’s jury trial and sentenced Jones according to

App.21a
the jury’s verdict to consecutive terms of life imprisonment on each count, and imposed various fees and
costs.1
In Proposition Three Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that while he is not Indian, his victims were citizens
of the Chickasaw Nation and the crimes occurred
within the boundaries of the Chickasaw Nation.
Appellant, in his direct appeal relies, in part, on
Murphy v. Royal, 875 F.3d 896 (10th Cir. 2017), which
was affirmed by the United States Supreme Court in
Sharp v. Murphy, 591 U.S. ___, 140 S. Ct. 2412 (2020)
for the reasons stated in McGirt v. Oklahoma, 591
U.S. ___, 140 S. Ct. 2452 (2020).
Appellant’s claim raises two separate questions:
(a) the Indian status of the victims and (b) whether
the crimes occurred in Indian Country. These issues
require fact-finding. We therefore REMAND this
case to the District Court of Pontotoc County, for an
evidentiary hearing to be held within sixty (60) days
from the date of this Order.2
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the victim’s legal status
as Indian and as to the location of the crime in
1 Appellant will be required to serve 85% of his sentences before
becoming eligible for parole.
2 In light of this order, Appellee’s request to file a response filed
July 16, 2020, is rendered moot.

App.22a
Indian Country, the burden shifts to the State to prove
it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, the Indian status of the victims. The District
Court must determine whether (1) the victims had
some Indian blood, and (2) were recognized as Indians
by a tribe or the federal government.3
Second, whether the crimes occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Chickasaw
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the reservation. In making this determination the District Court
should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the
record of the evidentiary hearing, the District Court’s
findings of fact and conclusions of law, and any other
3 See e.g. Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Drewry, 365 F.3d 957, 960-61 (10th Cir.
2004); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001).

App.23a
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law, and supplemental briefing shall
occur as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Pontotoc County:
Appellant’s Brief in Chief filed July 27, 2018; Appellee’s
Response Brief, filed November 14, 2018; and Appellant’s Reply Brief filed December 4, 2018.

App.24a
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 24th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

